No. 20-503
IN THE

Supreme Court of the United States
TOFIG KURBANOV,
Petitioner,
v.
UMG RECORDINGS, INC., ET AL.,
Respondents.
CERTIFICATE OF SERVICE
I, Ian Heath Gershengorn, hereby certify that I am a member of the Bar of this
Court, and that I have this 8th day of December 2020, caused a paper copy of the Brief
in Opposition to be delivered to the Court and an electronic version of the document to
be delivered to:
Evan M. Fray-Witzer
Ciampa Fray-Witzer, LLP
20 Park Plaza
Ste. 505
Boston, MA 02116
(617) 426-0000
Evan@CFWLegal.com
Counsel for Tofig Kurbanov

/s/ Ian Heath Gershengorn
Ian Heath Gershengorn

